  U.S. ENVIRONMENTAL PROTECTION AGENCY
  OFFICE OF INSPECTOR GENERAL



                                 Catalyst for Improving the Environment




EPA’s Contract Oversight and
Controls Over Personal
Computers Need Improvement
Report No. 11-P-0705

September 26, 2011
Report Contributors:                               Paul Curtis
                                                   Wanda Whitfield
                                                   Catherine Allen
                                                   Kelly Bonnette
                                                   Sheila May
                                                   Myka Sparrow
                                                   Gloria Taylor-Upshaw




Abbreviations

CTS           Customer Technology Solutions
EPA           U.S. Environmental Protection Agency
FAR           Federal Acquisition Regulation
FAS           Fixed Assets Subsystem
FY            Fiscal year
IFMS          Integrated Financial Management System
OARM          Office of Administration and Resources Management
OEI           Office of Environmental Information
OIG           Office of Inspector General
PAO           Property accountable officer
PMO           Property management officer
PUO           Property utilization officer




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  e-mail:    OIG_Hotline@epa.gov                      write:    EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue NW
  fax:       703-347-8330                                       Mailcode 8431P (Room N-4330)
  online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                       U.S. Environmental Protection Agency 	                                            11-P-0705
                                                                                                 September 26, 2011
                       Office of Inspector General


                       At a Glance
                                                                          Catalyst for Improving the Environment

Why We Did This Review           EPA’s Contract Oversight and Controls Over
We performed this review to      Personal Computers Need Improvement
determine whether the U.S.        What We Found
Environmental Protection
Agency (EPA) has adequate        EPA paid the CTS contractor a total of $489,734 over an 11-month period for
controls for safeguarding        3,343 seats—a standard seat includes a leased computer with accessories and
personal computers.              technical support—not ordered by the Agency during the period. In addition, EPA
Specifically, we sought to       did not accept the contractor’s monthly asset management performance self-rating
determine (1) whether EPA        for over a year because of its nonperformance in properly accounting for and
has adequate controls in place   tracking assets. As a result, EPA should take action to reduce the minimum
for tracking and disposing of    number of seats requirement in the CTS contract. If EPA does not make changes
personal computers, and          to the CTS contract, EPA may pay as much as $1.4 million more through
(2) the status of EPA-owned      September 2012 for personal computer standard seats that it did not order, for a
personal computers replaced      total potential payment of $1.9 million for seats not ordered.
under the Customer
Technology Solutions (CTS)       Because EPA did not safeguard and track personal computers to ensure proper
service contract.                replacement and disposal in accordance with property regulations, it cannot
                                 account for 638 personal computers valued at over $1 million. EPA did not know
Background                       the status of these personal computers, some of which may have been replaced
                                 under the CTS contract. EPA’s Personal Property Policy and Procedures Manual
EPA’s Office of                  outlines requirements for property staff to ensure the effective accountability,
Administration and               utilization, and disposal of personal property. EPA should improve controls for
Resources Management             updating data in the fixed assets database, and should retain property acquisition
manages the Agency’s             documentation in accordance with retention requirements. In addition, the
personal property. During        Agency should have a separation of duties in its property staff positions and
fiscal year 2009, EPA            consider assigning permanent property positions.
contracted its desktop
computer services with the        What We Recommend
CTS service contract. The
Office of Environmental          We recommend that the Assistant Administrator for Environmental Information
Information has primary          and Chief Information Officer review and/or modify the CTS contract to adjust
oversight of the contract.       the minimum standard seat requirement to eliminate monthly payments for CTS
                                 computers that EPA will not need. We recommend that the Assistant
                                 Administrator for Administration and Resources Management update the property
                                 manual to require the separation of duties in property staff positions and consider
For further information,         assigning permanent property positions throughout the Agency to ensure that there
contact our Office of            are safeguards over EPA’s assets. We also recommend that the Assistant
Congressional and Public
Affairs at (202) 566-2391.       Administrator for Administration and Resources Management develop and
                                 implement processes that would (1) require property staff to routinely review and
The full report is at:           update the Fixed Assets Subsystem database, and (2) ensure that property staff
www.epa.gov/oig/reports/2011/    adhere to records retention requirements. EPA disagreed with our first
20110926-11-P-0705.pdf           recommendation and we consider it unresolved and are working toward a
                                 resolution. EPA agreed with the remaining three recommendations.
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460



                                                                              THE INSPECTOR GENERAL



                                       September 26, 2011

MEMORANDUM

SUBJECT:	 EPA’s Contract Oversight and Controls Over Personal Computers
          Need Improvement
          Report No. 11-P-0705


FROM:	         Arthur A Elkins, Jr.
               Inspector General

TO:            Malcolm D. Jackson
               Assistant Administrator for Environmental Information and
                Chief Information Officer

               Craig E. Hooks
               Assistant Administrator for Administration and Resources Management


This is our report on EPA’s controls over personal computers conducted by the Office of
Inspector General (OIG) of the U.S. Environmental Protection Agency (EPA). This report
contains findings that describe the problems the OIG has identified and corrective actions the
OIG recommends. This report represents the opinion of the OIG and does not necessarily
represent the final EPA position on the subjects reported. Final determination on matters in this
report will be made by EPA managers in accordance with established audit resolution
procedures.

The estimated direct labor and travel costs for this report are $191,519.

Action Required

The Agency disagreed with recommendation 1, and this recommendation is unresolved with
resolution efforts in progress. The Agency provided an acceptable corrective action plan for
recommendations 2, 3, and 4; these are still in an open status. Therefore, in accordance with EPA
Manual 2750 and ongoing resolution efforts, you are required to provide a written response to
recommendation 1, including a proposed corrective action plan, within 90 calendar days of the
report date. In addition, in your 90-day response you may update the OIG on the implementation
status of the agreed-to corrective actions for recommendations 2, 3, and 4. The response will be
posted on the OIG’s public website, along with our memorandum commenting on the response.
The response should be provided as an Adobe PDF file that complies with the accessibility
requirements of Section 508 of the Rehabilitation Act of 1973, as amended. The final response
should not contain data that should not be released to the public; if the response contains such
data, the data for redaction or removal should be identified. We have no objections to the further
release of this report to the public. We will post this report to our website at
http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Paul Curtis at
(202) 566-2523 or curtis.paul@epa.gov; or Wanda (Whitfield) Arrington, Project Manager, at
(202) 566-2533 or whitfield.wanda@epa.gov.
EPA’s Contract Oversight and Controls Over                                                                                   11-P-0705
Personal Computers Need Improvement



                                   Table of Contents 


Chapters
   1	    Introduction ........................................................................................................      1


                 Purpose .......................................................................................................    1     

                 Background .................................................................................................       1     

                 Noteworthy Achievements ...........................................................................                2     

                 Scope and Methodology ..............................................................................               3     


   2	    EPA Should Reduce the Minimum Quantity Required

         Under the CTS Contract.....................................................................................                5


                 Federal Acquisition Regulations Allow for Deductive Changes ...................                                    5

                 EPA Paid for Seats Not Used and Could Potentially Pay $1.9 Million ........                                        6

                 EPA Did Not Accept the Contractor’s Asset Management 

                   Performance Self-Ratings ......................................................................                  7

                 Conclusion...................................................................................................      8     

                 Recommendation ........................................................................................            8     

                 Agency Comments and OIG Evaluation ......................................................                          8


   3	    EPA’s Personal Computer Controls Need Continued Improvement.............                                                  10 


                 EPA Could Not Account for Some Personal Computers .............................                                   10 

                 EPA Did Not Update FAS ............................................................................               11 

                 EPA Did Not Retain Acquisition Documentation .........................................                            11 

                 EPA Property Staff Hold Multiple Positions .................................................                      11 

                 Conclusion...................................................................................................     12     

                 Recommendations ......................................................................................            12     

                 Agency Comments and OIG Evaluation ......................................................                         13 


   Status of Recommendations and Potential Monetary Benefits..............................                                         14




Appendices
   A	    Details on Scope and Methodology..................................................................                        15


   B	    OEI Response to Draft Report...........................................................................                   16


   C	    OARM Response to Draft Report......................................................................                       18 


   D	    Distribution .........................................................................................................    21

                                  Chapter 1

                                   Introduction
Purpose
            We performed this review to determine whether the U.S. Environmental
            Protection Agency (EPA) has adequate controls for safeguarding personal
            computers. Specifically, we wanted to determine:

               	 Whether EPA has adequate controls in place to track and dispose of
                  personal computers that are owned by EPA, and whether EPA has
                  adequate oversight controls of computers provided through the Customer
                  Technology Solutions (CTS) contract.

               	 The status of EPA-owned personal computers replaced under the CTS
                  service contract during fiscal year (FY) 2009.

Background

            Accountable Personal Property Management

            The EPA Office of Administration and Resources Management (OARM) is
            responsible for providing direction to develop and establish an effective and
            efficient property program Agency-wide. Within OARM, the Agency property
            management officer ensures that all accountable personal property is maintained
            in the Integrated Financial Management System (IFMS) Fixed Assets Subsystem
            (FAS), and advises employees of their responsibilities to manage and account for
            government personal property. EPA defines accountable personal property as
            nonexpendable personal property with an acquisition cost of $5,000 or greater,
            EPA-leased personal property, or property identified as a sensitive item. Sensitive
            items are personal property owned or leased by EPA that may be converted to
            private use or that has a high potential for theft, such as personal computers, cell
            phones, personal digital assistants, and cameras.

            The 4832 EPA Personal Property Policy and Procedures Manual, dated April 18,
            2006, is the primary authoritative reference for property management. Property
            staffs manage personal property in 24 accountable areas nationwide, to include
            headquarters, regions, and laboratories. Each accountable area should have a
            property management officer (PMO), property accountable officer (PAO), and
            property utilization officer (PUO) who are responsible for ensuring that adequate
            and effective administrative controls are established for all personal property
            under their jurisdiction.




11-P-0705                                                                                    1
            Customer Technology Solutions

            The EPA Office of Environmental Information (OEI) has the primary oversight
            responsibility for the CTS service contract. As a Working Capital Fund service,
            the CTS service contract is an indefinite delivery/indefinite quantity contract with
            fixed rates for services that provides computers and technical support for end
            users. The contract period is from May 1, 2008, to August 21, 2012, with optional
            award terms extending through December 31, 2016.

            During FY 2009, EPA began using the CTS contract to provide and coordinate
            technology end-user support and services for headquarters program offices and
            laboratories. Under the CTS contract, the Agency replaced over 11,000 computers
            from October 2008 to September 2009. The rapid replacement of EPA-owned
            computers with CTS computers heavily taxed headquarters accountable areas and
            outpaced EPA’s efforts to update Agency property records in IFMS/FAS.

            After the first 16 months of the contract’s base period, starting in the 17th month,
            the contract requires EPA to purchase a monthly minimum of 12,000 standard
            seats, which includes a computer with accessories and technical support.

Noteworthy Achievements
            In May 2010, EPA took immediate steps to locate property it could not account
            for that was reported during our annual financial statement audit. EPA conducted
            additional inventories in the 24 accountable areas and accounted for 1,332 items
            valued at $4.7 million. In addition, an EPA official issued a letter to Agency
            senior management discussing the current property concerns and the need to
            ensure that necessary property officers are assigned for each accountable area and
            given the resources and support necessary to perform their functions effectively.
            For FY 2011, the Agency will place more emphasis on property during the A-123
            internal control reviews. Additionally, EPA plans to address property controls
            nationwide by developing online training programs for property staff. In its
            response to our draft report, EPA noted that it has made significant progress
            toward improving the personal property program and mitigating vulnerabilities.
            For example, EPA has located an additional 96 items as of August 2011.

            In addition, EPA stated that it continues to make significant resource investments
            to address end user dissatisfaction with the CTS deployments and/or other related
            concerns, as outlined in a previous OIG report (i.e., EPA Needs to Improve
            Management Practices to Ensure a Successful Customer Technology Solutions
            Project, Report No. 10-P-0194, August 23, 2010).




11-P-0705                                                                                    2
Scope and Methodology
                  We performed this review from February 4, 2010, through July 7, 2011,1 at EPA
                  headquarters in Washington, DC. We also visited field offices located in Atlanta,
                  Georgia; Kansas City, Kansas; and Research Triangle Park, North Carolina. We
                  conducted this review in accordance with generally accepted government auditing
                  standards. Those standards require that we plan and perform the audit to obtain
                  sufficient, appropriate evidence to provide a reasonable basis for our findings and
                  conclusions based on our objectives. We believe that the evidence obtained
                  provides a reasonable basis for our findings and conclusions based on our
                  objectives.

                  We did not evaluate the entire system of internal controls over personal or
                  accountable property. We assessed internal controls related to the activities
                  associated with EPA’s personal computers. Specifically, we documented the
                  Agency’s procedures, including contract requirements, related to EPA’s personal
                  computers. We also reviewed the Federal Acquisitions Regulations (FAR)
                  Sections 16 and 52, EPA’s Personal Property Policy and Procedures Manual,
                  and EPA’s Record Retention Schedule 631. Appendix A contains a detailed
                  discussion of our scope and methodology.

                  Prior EPA Office of Inspector General Reports

                  The EPA Office of Inspector General (OIG) has not performed any past audits of
                  EPA’s personal computers, but issued the following reports with findings related
                  to personal property or CTS:

                       	 Audit of EPA’s Fiscal 2010 and 2009 Consolidated Financial Statements,
                          Report No. 11-1-0015, November 15, 2010. This report noted that EPA
                          headquarters could not account for certain personal property items in
                          FY 2010 as required by EPA’s Personal Property and Procedures
                          Manual. The primary cause was that headquarters mid-level management
                          was not knowledgeable about Agency property management procedures.

                       	 EPA Needs to Improve Management Practices to Ensure a Successful
                          Customer Technology Solutions Project, Report No. 10-P-0194,
                          August 23, 2010. This report noted that missteps in project planning for
                          the CTS deployment led to questions about four areas: (1) the quality of
                          the helpdesk supporting the project, (2) a quality management program
                          that was not finalized, (3) key business processes to support ongoing
                          operations not being defined, and (4) vacant leadership positions needed to
                          facilitate communication and coordination with customers about CTS
                          equipment deployments. These conditions resulted in many end users


1
 We suspended the assignment in September 2010 and resumed work on January 25, 2011. We performed additional work to
update our assignment findings and concluded our audit on July 7, 2011.



11-P-0705                                                                                                              3
                   voicing dissatisfaction with the CTS deployment and continued
                   dissatisfaction with helpdesk support.

               	 Improved Security Planning Needed for the Customer Technology
                  Solutions Project, Report No. 10-P-0028, November 16, 2009. This report
                  noted that EPA lacks a process to routinely test CTS equipment for known
                  vulnerabilities and to correct identified threats. In addition, EPA placed
                  CTS equipment into production without fully assessing the risk the
                  equipment poses to the Agency’s network and authorizing the equipment
                  operations.

               	 Audit of EPA’s Fiscal 2009 and 2008 (Restated) Consolidated Financial
                  Statements, Report No. 10-1-0029, November 16, 2009. This report noted
                  that EPA did not conduct a physical inventory of 1,804 items of
                  accountable personal property at EPA headquarters in FY 2009 as required
                  by EPA’s Personal Property and Procedures Manual. EPA did not
                  inventory all headquarters accountable property because it did not develop
                  procedures to account adequately for the replacement of thousands of
                  personal computers resulting from EPA implementing a new desktop
                  service provider.

            We found no prior U.S. Government Accountability Office reports with findings
            or recommendations related to EPA’s personal computers.




11-P-0705                                                                                4
                                              Chapter 2

    EPA Should Reduce the Minimum Quantity Required 

                Under the CTS Contract 

                    EPA paid the CTS contractor a total of $489,734 over an 11-month period for
                    3,343 seats2 not ordered by the Agency during the period. In addition, EPA did
                    not accept the contractor’s monthly asset management performance self-rating for
                    over a year because of its nonperformance in properly accounting for and tracking
                    assets. After the first 16 months of the contract’s base period, starting in the
                    17th month, the contract requires EPA to purchase a monthly minimum of 12,000
                    standard seats. However, EPA did not order the minimum number of seats for
                    11 of the 12 months reviewed. EPA believes it is required to pay for a minimum
                    order of 12,000 standard seats regardless of the actual number of computers
                    ordered. If EPA does not make changes to the CTS contract, we estimate that
                    EPA may pay as much as $1.4 million more through September 2012 for personal
                    computer standard seats that it did not order, for a total potential payment of
                    $1.9 million for seats not ordered.

Federal Acquisition Regulations Allow for Deductive Changes
                    The CTS contract requires EPA to order monthly a minimum of 12,000 standard
                    seats. Because of the contract requirements, EPA paid for 12,000 standard seats
                    monthly even when it did not order the minimum seat requirement. FAR Section
                    16.504(a) (2) states that to ensure that the contract is binding, the minimum
                    quantity must be more than a nominal quantity, but it should not exceed the
                    amount that the government is fairly certain to order. The CTS contract
                    incorporates by reference FAR Section 52.243-1, Alternate II, which states:

                             The Contracting Officer may at any time, by written order,
                             and without notice to the sureties, if any, make changes within
                             the general scope of this contract in any one or more of the
                             following: (1) Description of services to be performed, (2)
                             Time of performance, (3) Place of performance for the
                             services, (4) Drawings, designs, or specifications when the
                             supplies to be furnished are to be specifically manufactured
                             for the Government, in accordance with drawings, designs, or
                             specifications. (5) Method of shipment or packing of supplies,
                             and (6) Place of delivery.




2
    A standard seat includes a leased computer with accessories and technical support.


11-P-0705                                                                                         5
            The contract also notes FAR Section 52.249-2, which states:

                   The Government may terminate performance of work under
                   this contract in whole or, from time to time, in part if the
                   Contracting Officer determines that a termination is in the
                   Government’s interest.

            EPA should reduce the minimum seats required under the contract to a
            level consistent with the record of actual orders through a deductive
            change to the contract. EPA could use either the Changes clause, FAR
            52.243-1, Alternate II; or as a partial termination for convenience, the
            authority under FAR 52.249-2. Through one of the clauses, EPA should be
            able to adjust its CTS contract to reduce the minimum number of seats the
            Agency is required to order to a number that it is likely to use.

EPA Paid for Seats Not Used and Could Potentially Pay $1.9 Million
            We found that EPA paid the contractor a total of $489,734 for a cumulative
            3,343 standard seats that were not utilized (an average of 304 per month for the
            11-month period) from February 2010 through January 2011. In FY 2010, from
            February 2010 through September 2010, EPA paid a total of $204,255 for
            1,397 computers it did not order. During the contract’s third fiscal year, October
            2010 through January 2011, EPA paid the contractor an additional $285,478 for
            1,946 seats it did not order. EPA negotiated a modification that reassigned the
            student/intern seats as counting toward the 12,000 standard seat requirement; the
            modification was in effect from April through September 2010. Because of this
            modification, EPA was able to use all 12,000 monthly seats in July 2010.

            EPA believes it is required to pay for a minimum order of 12,000 standard seats
            regardless of the actual number of computers ordered. We estimate that EPA
            could pay the contractor $1.4 million for seats not ordered from February 2011
            through September 2012. Our estimate is based on an average of monthly
            payments (table 1) for seats not ordered from October 2010 to January 2011. EPA
            could potentially pay a total of $1.9 million in current and future payments for
            standard seats not utilized.




11-P-0705                                                                                   6
            Table 1: Payments for seats not ordered associated with the CTS contract
                                                              # of
                                                             seats       Payment amount
                                               # of seats     not         for seats not
                    Performance period          ordered     ordered         ordered
             February 2010                       11,744          256 $         37,429.76
             March 2010                          11,666          334           48,834.14
             April 2010                          11,679          321           46,933.41
             May 2010                            11,759          241           35,236.61
             June 2010                           11,982            18           2,631.78
             July 2010                           12,040           n/a               0.00
             August 2010                         11,992             8           1,169.68
             September 2010                      11,781          219           32,019.99
             October 2010                        11,538          462           67,775.40
             November 2010                       11,533          467           68,508.90
             December 2010                       11,520          480           70,416.00
             January 2011                        11,463          537           78,777.90
                        Total (actual)                         3,343 $       489,733.57
             February 2011 to September 2011                                 570,956.40
             October 2011 to September 2012                                  859,820.64
                      Total (estimated)                                 $ 1,430,777.04
                Total potential payment for
                     seats not ordered                                  $ 1,920,510.61
            Source: OIG analysis.


EPA Did Not Accept the Contractor’s Asset Management Performance
Self-Ratings
            EPA did not accept the contractor’s monthly asset management performance self-
            ratings of its assets from May 2009 through January 2011. The performance
            measures for asset management assess the contractor’s accounting, recording, and
            tracking of its assets. These measures, along with other measures in the contract,
            are used to ensure that the contractor delivers quality service in accordance with
            performance requirements outlined by the government.

            The Agency noted that the contractor’s performance had improved since contract
            inception, but was still below expectations. As a result, EPA has not granted the
            contractor an award fee for its performance. The payment of any award fee is
            contingent upon the contractor’s performance and its compliance with contract
            requirements. According to the Agency, it generates and uses the award fee
            documentation to identify specific contractual obligations not yet completed, such
            as the submission of government-approved deliverables. EPA noted that the
            contractor has not been responsive to various issues such as outstanding
            deliverables and meeting the performance measures.




11-P-0705                                                                                  7
Conclusion
            EPA is currently in the process of reviewing the contract to identify FY 2011
            modifications that may be needed to include the student/intern seats in the
            12,000 standard seat monthly requirement. EPA has been unable to meet the
            minimum standard seat requirements, and the contractor’s performance has not
            met expectations. Therefore, we believe EPA should renegotiate the CTS contract
            requirements, so the government is not paying for computers and related services
            it does not need. In addition, EPA should continue to withhold the contractor’s
            award fee until its performance is at an acceptable level.

Recommendation
            We recommend that Assistant Administrator for Environmental Information and
            Chief Information Officer:

                   1.	 Review and/or modify the CTS contract to adjust the minimum
                       standard seat requirement to eliminate monthly payments for CTS
                       computers that EPA does not order.

Agency Comments and OIG Evaluation
            In a memorandum dated August 18, 2011, OEI stated:

                   OEI respectfully disagrees with this recommendation. The
                   contract structure considers components other than just the
                   number of computers ordered for figuring the standard seat
                   minimum and for calculating the monthly standard seat cost.
                   In addition to the cost of the computers, the cost of the
                   infrastructure used to support users, as well as contractor
                   support are all factored into the total cost of providing the
                   overall CTS service to EPA.

                   Since the needed infrastructure and head-count for support
                   personnel is not variable, making adjustments based on the
                   number of seats utilized would spread the overall price over
                   fewer seats, thus resulting in a greater seat price to users. The
                   pricing on this contract is the total price to provide the service
                   to a minimum of 12,000 users. If there are less than 12,000
                   users the overall price will not change. Therefore, adopting a
                   “pay by the number of active seats” approach as
                   recommended would not eliminate monthly payments for CTS
                   computers, but would simply spread the overall price over a
                   lesser number of seats, thus resulting in a greater per-seat
                   price with the overall price remaining the same.



11-P-0705                                                                                8
                   Therefore, the prospect of modifying the contract in this
                   respect has not been a course of action pursued by OEI.

            The OIG agrees that the contract structure considers components other than just
            the number of computers ordered for figuring the standard seat minimum and for
            calculating the monthly standard seat cost. We also agree that the current pricing
            on this contract is for a minimum of 12,000 users. However, we believe that by
            using the contract clauses, EPA can negotiate with the contractor to change the
            pricing on this contract for the minimum 12,000 users to keep from paying for
            computers and related services it does not need. With the potential to pay a total
            of $1.9 million in current and future payments for standard seats and services not
            utilized, EPA should renegotiate the CTS contract requirements. We consider this
            issue unresolved. Appendix B contains the full text of OEI’s response.




11-P-0705                                                                                  9
                                    Chapter 3

            EPA’s Personal Computer Controls Need 

                   Continued Improvement 

             Because EPA did not safeguard and track personal computers to ensure proper
             replacement and disposal in accordance with property regulations, it cannot
             account for 638 personal computers valued at over $1 million. EPA did not know
             the status of these personal computers, some of which may have been replaced
             under the CTS contract. EPA’s Personal Property Policy and Procedures Manual
             outlines requirements for property staff to ensure the effective accountability,
             utilization, and disposal of personal property. However, EPA did not update FAS
             and retain acquisition documentation for property. In addition, we found a lack of
             separation of duties in property staff positions. As a result, EPA did not safeguard
             EPA assets and could not account for these personal computers.

EPA Could Not Account for Some Personal Computers
             EPA did not know the status of 638 personal computers valued at over $1 million,
             of which 171 may have been computers that were replaced under the CTS
             contract with an estimated value of $299,000. We requested a list of all the
             personal computers replaced by the CTS computer deployment. EPA provided an
             incomplete list of end-user stations at headquarters that received CTS computers,
             and was unable to provide a list of computers replaced outside of headquarters.
             We performed a test of personal computers and could not locate four in
             headquarters. After our review, EPA reinventoried property, including personal
             computers, to locate unrecorded property. As a result, EPA determined that 638
             computers were unaccounted for as of January 2011, including the 171 laptops
             that the Agency stated may have been replaced by the CTS service contract
             computers. A senior official stated that program offices in accountable areas did
             not follow the property policy during the CTS computer deployment. From its
             internal review, EPA found that numerous unaccounted for headquarters personal
             property items were transferred without the proper documentation.

             EPA’s Personal Property Policy and Procedures Manual, section 3.5.1, states
             that all actions that remove accountable personal property from an accountable
             area’s records in IFMS must be documented with approved forms and recorded in
             a voucher log. Removal actions include transfers to other accountable areas,
             transfers to other federal agencies, transfers to state or local governments, returns
             to the lessor, and disposal.




11-P-0705                                                                                      10
EPA Did Not Update FAS
            EPA did not have accurate property data in the financial system. During testing,
            we found inconsistencies in the location of personal computers, incorrect serial
            numbers, and inaccurate descriptions. For instance, FAS reported network servers
            as personal computers. According to EPA’s Personal Property Policy and
            Procedures Manual, sections 1.1.6, 1.2.1, and 1.2.2, property officers are required
            to ensure that all accountable personal property is maintained in IFMS to control
            and account for personal property assigned to the accountable area. Property
            officers are required to enter additions, transfers, and deletions into IFMS in a
            timely manner. Property staff did not follow property procedures to correct or
            update data in FAS. One accountable area relied on a contractor to maintain and
            update data in FAS; this contractor did not always update the system to account
            for property. FAS needs accurate data to ensure proper asset management. In its
            response to our draft report, EPA noted that it has made considerable progress in
            scrubbing and verifying data between offices with shared responsibility and
            stakeholders.

EPA Did Not Retain Acquisition Documentation
            Accountable areas did not retain acquisition records for property. During our
            testing, we identified three accountable areas that did not maintain acquisition
            documents. One of three areas did not keep documentation for property more than
            3 years from the date of acquisition. According to EPA’s Personal Property
            Policy and Procedures Manual, section 3.1, personal property records must be
            maintained in IFMS and original documents pertaining to the acquisition of
            property must be retained for 5 years or the life of the item, whichever is longer.
            EPA’s property staff was not aware of the requirements for records retention and
            therefore did not retain supporting documents for active property. In response to
            our FY 2010 financial statement audit recommendations, EPA plans to address
            property controls nationwide by developing an online training program to
            improve property staff skills. EPA also noted in its response to our draft report
            that it has initiated improvements in this area and has taken steps to ensure that
            necessary acquisition documentation is appropriately maintained.

EPA Property Staff Hold Multiple Positions
            EPA’s accountable areas did not have a separation of duties in property positions
            to ensure safeguards over personal computers. We found that property staff held
            more than one property position. Accountable area property officers are
            responsible for managing personal property. They include:

                  Property Management Officer: The PMO is responsible for the effective
                   day-to-day implementation of the personal property management program.
                  Property Accountability Officer: The PAO is responsible for ensuring
                   the effective acquisition, management, utilization, and disposal of personal


11-P-0705                                                                                   11
                  property and overall accountability of IFMS as it relates to personal
                  property.
               	 Property Utilization Officer: The PUO is responsible for promoting the
                  acquisition and profitable use of available excess personal property from
                  known sources, including EPA, the General Services Administration, and
                  other federal agencies.

            During our testing, we identified property staff appointed to multiple positions in
            the same or different accountable areas. Two accountable areas had one person in
            both the PAO and PUO positions. In another area, one person held all three
            property positions. EPA’s Personal Property Policy and Procedures Manual,
            section 1.2, notes that the PMO, PUO, and PAO roles should be assigned to
            separate individuals, if possible. EPA stated that staff held multiple positions
            because in one instance, as a position became vacant, staff had to absorb the work
            of that vacant property position.

            In a September 3, 2010, memorandum, OARM stated that for EPA’s personal
            property program to function efficiently, the jurisdictional program or regional
            manager for each accountable area is to appoint, in writing, separate individuals,
            and ensure that the proper resources are available to them. By the end of our
            review, we identified limited changes in these property positions. EPA should
            review this requirement for consistency and implementation throughout the
            Agency, and consider permanent property positions to ensure proper safeguards
            over assets. In its response to our draft report, EPA noted that all accountable
            areas have been advised of the need to assign different individuals to the extent
            possible within their available resources.

Conclusion
            EPA did not safeguard and track personal computers to ensure proper replacement
            and disposal in accordance with property regulations, and therefore could not
            account for numerous personal computers. EPA currently is working with
            property custodial officers in each of the 24 property accountable areas to account
            for the computers. EPA management has worked to give attention to property
            issues by issuing its September 3, 2010, memorandum for improving
            accountability of personal property. We believe EPA should continue its emphasis
            on controls and specifically address property controls relating to FAS, property
            management positions, and adherence to records retention policies.

Recommendations
            We recommend the Assistant Administrator for Administration and Resources
            Management:

                   2.	 Update the property manual to require the separation of duties in
                       property staff positions and consider assigning permanent property


11-P-0705                                                                                   12
                      positions throughout the Agency to ensure that there are safeguards
                      over EPA’s assets.

                   3.	 Develop and implement a process that would require property staff to
                       routinely review and update FAS data.

                   4.	 Develop and implement a process that would ensure that property
                       staffs adhere to records retention requirements.

Agency Comments and OIG Evaluation
            EPA agreed with our recommendations and proposed acceptable corrective action
            plans to address them. Appendix C contains the full text of OARM’s response.




11-P-0705                                                                                   13
                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                                  POTENTIAL MONETARY
                                                    RECOMMENDATIONS                                                                BENEFITS (in $000s)

                                                                                                                      Planned
    Rec.    Page                                                                                                     Completion   Claimed    Agreed-To
    No.      No.                          Subject                          Status1         Action Official              Date      Amount      Amount

     1        8     Review and/or modify the CTS contract to adjust          U        Assistant Administrator for                 $1,400
                    the minimum standard seat requirement to                          Environmental Information
                    eliminate monthly payments for CTS computers                     and Chief Information Officer
                    that EPA does not order.

     2       12     Update the property manual to require the                O        Assistant Administrator for     10/01/11
                    separation of duties in property staff positions and                 Administration and
                    consider assigning permanent property positions                    Resources Management
                    throughout the Agency to ensure that there are
                    safeguards over EPA’s assets.

     3       13     Develop and implement a process that would               O        Assistant Administrator for     11/30/12
                    require property staff to routinely review and                       Administration and
                    update FAS data.                                                   Resources Management

     4       13     Develop and implement a process that would               O        Assistant Administrator for     11/30/12
                    ensure that property staffs adhere to records                        Administration and
                    retention requirements.                                            Resources Management




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is unresolved with resolution efforts in progress




11-P-0705                                                                                                                                          14
                                                                                     Appendix A

                    Details on Scope and Methodology
We conducted this audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives. We conducted our audit from February to July
2010 at EPA headquarters, in Washington DC. We also visited field offices located in Atlanta,
Georgia; Kansas City, Kansas; and Research Triangle Park, North Carolina. In September 2010,
we suspended the assignment and reopened it in January 2011. We performed additional work to
update our assignment findings and concluded our audit on July 7, 2011.

Using EPA’s 24 accountable areas, with the assistance of the OIG Data Mining and Analysis
staff, we identified a population of 35,050 EPA personal computers from the IFMS/FAS. We
identified the four accountable areas with the highest acquisition cost. We statistically selected
235 computers for our sample from the four areas (table A-1). We identified 159 personal
computers as historical items (e.g., conversion items from the prior property system or disposals
from 1994 to 2006). We could not locate at the time of our audit 18 computers, resulting in
58 samples tested. We tested samples, performed an inventory, and reviewed property controls
and data in FAS. We reviewed supporting documentation for disposed property and property on-
site in accordance with EPA’s Personal Property Policy and Procedures Manual and EPA’s
Records Retention Schedules.

Table A-1: OIG testing schedule for EPA’s personal computers

                                    Total        Sample      Historical    Missing     Tested
 Accountable area and location     samples       dollars     samples       samples    samples

 AA01—Headquarters                    59      $189,058.75        29           16         14
 AA06—Research Triangle
 Park, North Carolina                 59        225,798.02       42           0          17
 AA14—Atlanta, Georgia                59         97,942.43       37           1          21
 AA17—Kansas City, Kansas             58        140,648.56       51           1           6

                         TOTALS       235     $653,447.76       159           18         58
Source: OIG analysis.

For CTS contract computers, we used EPA’s most recent inventory deliverable as of December
2009 to obtain our universe. We identified our universe of 10,359 deployed CTS computers. We
selected two accountable areas for which we were already reviewing EPA’s personal computers.
We statistically selected 59 deployed computers for our sample at the two sites. We tested
samples and performed an inventory. We reviewed documentation supporting EPA’s oversight
of the CTS contract and CTS inventory requirements. For all samples, we held interviews with
EPA personnel, performed observations, and analyzed property data.



11-P-0705                                                                                       15
                                                                                   Appendix B

                      OEI Response to Draft Report
                   UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                WASHINGTON, D.C. 20460

                                         AUG 1 8 2011

                                                                                 OFFICE OF
                                                                        ENVIRONMENTAL INFORMATION



MEMORANDUM

SUBJECT:      OEI Response to Draft Report: EPA’s Contract Oversight and Controls Over
              Personal Computers Need Improvement (Project No. OA-FY 10-0057)

FROM:         Malcolm D. Jackson /s/
              Assistant Administrator and Chief Information Officer

TO:	          Arthur Elkins
              Inspector General

       The purpose of this memorandum is to provide a response to the subject draft report and
provide additional clarification regarding the Office of Environmental Information’s (OEI)
management of the Customer Technology Solutions (CTS) service contract.

       OEI appreciates the OIG’s desire to ensure EPA has adequate controls for safeguarding
personal computers and contract oversight. Although OEI has the primary oversight
responsibility for the CTS contract, we are in partnership with EPA’s Office of Acquisition
Management (OAM).

       While OEI does not concur with OIG’s current audit report recommendation, OEI
continues to make significant resource investments to address end user dissatisfaction with CTS
deployments and/or other related concerns as outlined in a previous OIG report (i.e., EPA Needs
to Improve Management Practices to Ensure a Successful Customer Technology Solutions
Project, Report No. 10-P-0194, August 23, 2010).

        Attached please find OEI’s detailed response to OIG’s current draft report. OEI believes,
as outlined in the attached response, that OIG may have a fundamental misunderstanding of
CTS’ contractual structure, especially as it relates to the standard seat minimum and for
calculating monthly standard seat cost.




11-P-0705                                                                                     16
        While OEI cannot agree with OIG’s recommendation at this point, we look forward to
further discussions regarding CTS’ monthly seat costs. If you have any questions, please feel
free to contact me.

Attachment

cc: 	   Gloria Taylor-Upshaw, OIG
        Craig Hooks, Assistant Administrator, OARM
        Renee Wynn, Acting Principal Deputy Assistant Administrator, OEI
        Vaughn Noga, Director, Office of Technology Operations and Planning
        Johnny E. Davis Jr., Director, Enterprise Desktop Solutions Division
        Jeff Worthington, OEI
        Patrick Huber, OEI Audit Follow-up Coordinator
        Anne Mangiafico, OTOP Audit Coordinator


                                                                                    ATTACHMENT
OEI's Detailed Response to Draft Report: EPA’s Contract Oversight and Controls over Personal
                 Computers Need Improvement (Project No. OA-FY 10-0057)

The following is OEI's response to the recommendation number one identified in the draft report:

Review and/or modify the CTS contract to adjust the minimum standard seat requirement
to eliminate monthly payments for CTS computers that EPA does not order.

OEI respectfully disagrees with this recommendation. The contract structure considers
components other than just the number of computers ordered for figuring the standard seat
minimum and for calculating the monthly standard seat cost. In addition to the cost of the
computers, the cost of the infrastructure used to support users, as well as contractor support are
all factored into the total cost of providing the overall CTS service to EPA.

Since the needed infrastructure and head-count for support personnel is not variable, making
adjustments based on the number of seats utilized would spread the overall price over fewer
seats, thus resulting in a greater seat price to users. The pricing on this contract is the total price
to provide the service to a minimum of 12,000 users. If there are less than 12,000 users the
overall price will not change. Therefore, adopting a "pay by the number of active seats" approach
as recommended would not eliminate monthly payments for CTS computers, but would simply
spread the overall price over a lesser number of seats, thus resulting in a greater per-seat price
with the overall price remaining the same.

Therefore, the prospect of modifying the contract in this respect has not been a course of action
pursued by OEI.




11-P-0705                                                                                          17
                                                                                    Appendix C

                   OARM Response to Draft Report
                   UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                WASHINGTON, D.C. 20460

                                         AUG 2 5 2011
                                                                                      OFFICE OF

                                                                                    ADMINISTRATION

                                                                                    AND RESOURCES 

                                                                                     MANAGEMENT



MEMORANDUM

SUBJECT:       Comments on Draft Report: EPA’s Contract Oversight and Controls Over
               Personal Computers Need Improvement (Project No. OA-FY10-0057)

               Nanci Gelb /s/
FROM:          for Craig E. Hooks, Assistant Administrator

TO:            Melissa M. Heist, Assistant Inspector General for Audits
               Office of Inspector General

The Office of Administration and Resources Management appreciates the opportunity to
comment on the draft report. OARM’s detailed comments are included in the attached document.
While we recognize that the OIG had requested a consolidated response, this memorandum is
limited to OARM as we understand that the Office of Environmental Information has elected to
reply separately.

OARM has taken significant steps since the audit to improve the program and mitigate
vulnerabilities. Should the OIG have questions or wish to discuss any part of this response, Dr.
Jerry Oakley, Deputy Director, Facilities Management and Services Division, is available at
(202) 564-2082 or oakley.jerry@epa.gov.


Attachment

cc: 	Nanci Gelb
     John Showman
     Renee Page
     Dennis Bushta
     Bridget Shea
     Jerry Oakley
     Bernie Davis-Ray
     David Shelby




11-P-0705                                                                                     18
              Draft Report: EPA's Contract Oversight and Controls Over Personal 

                Computers Need Improvement (Project No. OA-FY I 0-0057) 


                                       OARM Comments


Chapter 3 - EPA's Personal Computer Controls Need Continued Improvement

Findings:

EPA Cannot Account for Personal Computers

OARM concurs with the finding in the draft report that EPA could not account for 638 personal
computers as of January 2011. As stated in my transmittal memo, we have made significant
progress toward improving the personal property program and mitigating vulnerabilities. For
example, we have already located an additional 96 items as of 08/01/11. However, we ask that
OIG consider being more specific in the report's subtitle regarding the number of unaccounted
items in order to more accurately reflect the percentage of the inventory involved.

EPA Did Not Update FAS

OARM concurs with the finding in the draft report that "EPA did not have accurate property data
in the financial system" because of "inconsistencies in the location of personal computers,
incorrect serial numbers, and inaccurate descriptions." We acknowledge that property staff
apparently did not always have the information or was not able to update data in FAS. It is worth
noting that we have made considerable progress in that data have now been scrubbed and
verified between offices with shared responsibility and stakeholders.

EPA Did Not Retain Acquisition Documentation

OARM acknowledges and concurs with the finding in the draft report that ... "you identified one
accountable area that did not maintain acquisition documents more than 3 years from the date of
acquisition." As this was a specific finding in one accountable area, we request that OIG consider
being more specific in this subtitle. We have initiated improvements in this area and have taken
steps to ensure necessary acquisition documentation is appropriately maintained by validating
records retention schedules through EPA's Record Retention Office and National Archives and
Records Administration.

EPA Property Staff Hold Multiple Positions

OARM concurs with the finding "identified property staff appointed to multiple positions in the
same or different accountable areas." At this time, all accountable areas have been advised of the
need to assign different individuals within their available resources.




11-P-0705                                                                                      19
OIG Recommendations:

2. Update the property manual to require the separation of duties in property staff
positions and consider assigning permanent property positions throughout the Agency to
ensure that there are safeguards over EPA's assets.

OARM concurs with this recommendation. Since we do not control staffing numbers and duty
assignments throughout the agency, we will take the following corrective actions:

   •	 Reissue the September 3, 2010, memorandum stating the requirement for separation of
      property roles and ask that consideration be given to assigning permanent property
      positions. Completion date: October 1, 2011
   •	 Include information on the required separation of property roles in the revision of EPA's
      Personal Property and Procedures Manual. Completion date: October 1, 2011

3. Develop and implement a process that would require property staff to routinely review
and update FAS data.

OARM concurs with this recommendation to require property staff to routinely review and
update personal property data. Property personnel are already expected to accurately enter and
update data. The implementation of the agency's new financial system should permit a more
functional and effective means to identify and track data. The following corrective action will
help ensure that property data in the financial system are accurate.

   •	 Conduct at least six field audits annually to monitor compliance with property 

      requirements for data entry and updating. Completion date: November 2012 


4. Develop and implement a process that would ensure that property staffs adhere to
records retention requirements.

OARM concurs with this recommendation and will take the following corrective actions:

   •	 Review the existing process for collecting and maintaining acquisition documents and
      make any necessary modifications. Completion date: November 1, 2011
   •	 Inform property personnel of the need to maintain all necessary acquisition
      documentation and provide timeframes and implementing guidance. Completion date:
      December 1, 2011
   •	 Include a review of records retention documentation in a minimum of six annual field
      audits. Completion date: November 2012




11-P-0705                                                                                         20
                                                                                Appendix D

                                    Distribution
Office of the Administrator
Assistant Administrator for Environmental Information and Chief Information Officer
Assistant Administrator for Administration and Resources Management
Agency Followup Official (the CFO)
Agency Followup Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Director, Office of Acquisition Management, Office of Administration and Resources
      Management
Director, Office of Regional Operations
Director, Facilities Management and Services Division, Office of Administration and
      Resources Management
Director, Office of Technology Operations and Planning, Office of Environmental Information
Director, Enterprise Desktop Solutions Division, Office of Environmental Information
Audit Followup Coordinator, Office of Environmental Information
Audit Followup Coordinator, Office of Administration and Resources Management




11-P-0705                                                                                 21
